                                         AROO-044




FEDERAL TRADE COMMISSION
   OFFICE OF INSPECTOR GENERAL




        SURVEY REPORT
    REVIEW OF SYSTEMS USED TO CAPTURE
 ANNUAL PERFORMANCE MEASURES UNDER THE
GOVERNMENT PERFORMANCE AND RESULTS ACT
                                        FEDERAL TRADE COMMISSION
                                          WASHINGTON, D.C. 20580
     OFFICE OF
 INSPECTOR GENERAL

                                                               January 31, 2000


  MEMORANDUM

       TO            Henry Hoffman
                     Chairman, GPRA Task Force

                     Rosemarie Straight
                     Executive Director
                     '?\.    <'.,    r2  n
                      j/\.J!r<~;!;~'4Y "- <r   <../<-~~~,-"
  FROM               Frederick 1 Zirkel!
                     Inspector General

SUBJECT              Transmittal of OIG Analysis of Selected GPRA Performance Measures


  The Office ofInspector General (OIG) has reviewed the agency's performance measures for
  FY 2000 that were contained in the FY 200 I proposed OMB budget request. The objective of
  our review was to determine whether systems are in place to capture performance information
  both accurately and timely.

  Our review of nine of the agency's thirteen performance measures as contained in the agency's
  FY 200 I Budget Request found that generally, systems are in place to collect and process data
  and to report it in a timely manner. We also found that the methodology to be used for
  accumulation of selected performance data was not sufficiently defined to allow for the reporting
  of measures in an accurate and consistent manner. Our concerns were discussed with
  representatives of each of the principle bureaus and efforts are now underway to better define
  precisely what data elements are to comprise each performance measure. The OIG believes that
  the best way to attack this weakness is for the GPRA task force to define the rationale behind
  each of the thirteen performance measures; i.e., clearly articulate how consumers/businesses are
  better off when the FTC meets or exceeds its performance targets.

  In reviewing the measurement systems, we did not opine on whether the measures best reflect the
  mission and outcomes of the agency's performance, nor do we endorse any or all of the
  measures. Our observations and analysis are being provided to management without detailed
  recommendations as no transaction testing was performed by the OIG.

  My staff is available to answer any questions the GPRA task force may have.

  Attachment
                   Office of Inspector General Survey Report
       Review of Systems Used to Capture Annual Performance Measures
             Under the Government Performance and Results Act


        The Government Performance and Results Act (GPRA) of 1993 (PL. 103-62) seeks to
improve the effectiveness, efficiency and accountability of Federal programs by focusing
management practices on program results. GPRA looks to help managers improve program
performance through better information on program effectiveness and costs; it also seeks to make
performance information available for congressional policy-making, spending decisions and
program oversight. GPRA requires Federal agencies to develop strategic plans, prepare annual
plans that set performance goals, and report annually on actual performance relative to those
goals, with the first report due by March 31, 2000.

       Performance measurement is the ongoing monitoring and reporting of program
accomplishments, particularly progress toward preestablished goals. It is typically conducted by
program or agency management, and focuses on whether a program has achieved its objectives,
expressed as measurable performance standards. In the agency's own words, performance
measures answer the question how do we know we've done what we set out to do?! For
performance measures to be useful, they should:

       o         be clearly set forth
       o         be objective and quantifiable
       o         be meaningful and relevant
       o         relate to measures developed in the agency's strategic plan, and
       o         present the outputs and outcomes of the program.

         The Office oflnspector General (OIG) has reviewed the agency's performance measures
to determine whether systems are in place to accurately capture this information for external
reporting. Specifically, the OIG (i) verified the existence of measurement systems;
(ii) determined whether the measures themselves are quantifiable; and (iii) assessed whether
system controls are in place to provide for the maintaining of accurate data.




       !   Agency-wide guidance on the FTC Intranet at http://intranet/pap/gpra/guidance.htm
Background

        Office of Management and Budget (OMB) Circular No. A-II, Part II, Preparation and
Submission ofStrategic Plans and Annual Performance Plans, provides guidance to Federal
departments and agencies on GPRA requirements and time frames. The circular identifies
agency strategic plans as integral to the effort to improve performance of government programs
and operations. Strategic plans include annual performance plans that set annual goals with
measurable target levels of performance, and annual program performance reports that compare
actual performance to the annual goals. Together these form the basis for the Federal
Government to "manage for results." FTC internal guidance notes that GPRA is supposed to
help OMB and Congress make decisions about whether there is enough "bangfor the buck" in
spending the tax payers' money on FTC activity; OMB and the Congress want to know the
results of their investment in the FTC

         The OIG's role in the GPRA performance measurement process is derived in part from
our responsibilities to conduct financial and program audits. For example, OMB Bulletin 97-0 I,
Form and Content ofAgency Financial Statements, states that each annual financial statement
shall include a brief narrative overview of the reporting entity (agency). Beginning in FY 1999
and beyond, agencies are to include performance goals and results in the overview section of the
financial statements. The reported measures of program and financial performance should be
consistent with information on major goals and objectives from the agency's strategic plan and
should be linked to the programs featured in the Statement of Net Cost. Both measures and
do Ilars are then subject to audit.

         The OIG has chosen to review GPRA performance measurement systems before
performance reports are due to OMB to provide agency managers an opportunity to consider our
observations and analysis. Although we did not apply the rigorous audit procedures that would
be applied in our annual review of the agency's financial statements, we did perform sufficient
tests to draw conclusions that, we believe, would help management improve its reporting of its
performance measures.

         To collect information for the survey, the OIG reviewed agency performance plans for
fiscal year 2000, including the GPRA five-year strategies, implementation plan and performance
measures, that were identified in the FTC's fiscal year 2001 proposed budget request to OMB.
We met with Bureau of Competition (BC) and Bureau of Consumer Protection (BCP) officials
responsible for planning activities and the preparation of the annual performance plans. We
reviewed systems used to capture performance information and discussed with system managers
how the information is collected, summarized and reported. Where applicable, we met with FTC
staff attorneys and analysts to better understand data collection processes when manual systems
were used. We also met with the Bureau of Economics , (BE) representative on the agency's
GPRA task force to discuss BE's role in establishing and collecting data for performance
measurement purposes.



                                              -2-
            In performing our analysis, the OIG assumed the following:

         o         Performance measures as developed with the involvement of senior management
                   represent a valid starting point for this process.

         o         Performance measures should stand on their own; i.e., detailed analysis should not
                   be required of a reader to understand a measure.

         o         Changes in the numbers from year-to-year (either up or down) actually reflect
                   changes in agency performance.

         o         Systems are in place to provide for consistent accumulation of data and reporting
                   of results.


Observations and Analysis

        The OIG reviewed nine of the thirteen agency performance measures - four that apply to
the Consumer Protection Mission and five that cover the Maintaining Competition Mission.'
Our results present the mission objective followed by the associated performance measure(s).
The performance measure numbering follows the presentation in the agency's FY 200 I Budget
Request. Overall, the agency has made strides toward developing performance measures that are
objective and quantifiable. However, both missions should better relate how consumers benefit
when the FTC achieves its performance goals. For example, in Performance Measure 2.1.1
below, the Maintaining Competition Mission has identified 20 days as a goal to review all Hart-
Scott-Rodino (HSR) transactions. The rationale for this goal, the OIG believes, is that the faster
a request can move through the review process, the sooner the economy will experience the
benefits of a competitive merger. By identifying the rationale, the performance measure will be
more meaningful. OIG analysis of specific performance measures follows.

                                   Consumer Protection Mission

        Objective 1. Identify fraud, deception, and unfair business practices that
        cause the greatest consumer injury.



             Performance Measure 1.1.1 Increase the number of consumer
             complaints and inquiries in the FTC's databases to at least SIIII,II(H).



        2    The four measures not reviewed by the OtG had not been finalized by the conclusion of our
ficldwork.

                                                    -3-
        The FTC seeks to focus its law enforcement resources on the most serious consumer
protection problems identified with the help of its consumer complaint databases. To augment
its databases, the agency recently established a toll free Consumer Help Line. It is believed that
the help line will make the agency more accessible to consumers who want to report fraud.

        Consumer complaints are logged in the Consumer Information System (CIS), an Oracle
database managed by BCP staff Complaints are aggregated and organized by numerous
attributes, including product, vendor, and consumer demographic data. A query by company
name, for example, can produce a sort of all consumer complaints against the company, enabling
the agency to determine, among other things, whether a pattern exists, and identify potential
witnesses should the agency open an investigation. During the period October I, 1997 through
August 18, 1999, there were approximately 394,000 entries (complaints and inquiries) in the
database. Since the installation of the toll free number and other outreach efforts designed to
alert consumers to the CIS, an average of 6,000 entries have been made to the database monthly.

        Our concern with this measure is twofold. First, complaints made by consumers to other
participating law enforcement organizations, such as local Better Business Bureaus, State
Attorneys General, etc., will be double counted when these databases are downloaded into the
CIS. Hence, one consumer could complain to five organizations and be counted five times in
FTC's complaint total. BCP staff was aware of this shortcoming of the system, but stated that
existing software in use does not enable them to easily draw distinctions by complainant when
the data is downloaded. When the system is upgraded, however, this capability will be
considered.

          Second, BCP's approach to reporting cumulative statistics as opposed to yearly activity
is not in keeping with the spirit of GPRA where yearly performance is being measured. For
example, if 72,000 entries were entered in the data base in FY 1999, then this total would be
added to the universe of all complaints and inquiries in the database, and not be reported
separately. OMB Circular No. A-II, Preparation and Submission ofStrategic Plans and Annual
Pel:formance Plans, states that performance goals and indicators should present a complete
picture of the performance related to the resources availablefiJr the fiscal year covered (emphasis
added). Other OMB guidance, including OMB Circular 97-01, Form and Content ofAgency
Financial Statements, stresses the importance of relating costs to performance over an annual
period. Cumulating overall results does not permit the user to determine whether agency efforts
are resulting in increases or decreases in complaint activity without having access to prior year(s)
statistics.

         The OIG questions whether analyzing three or four year-old complaint data is necessarily
going to help accomplish Consumer Protection Objective 1.1.1. Furthermore, by looking several
years into the future, we also question the marginal effect "thousands" of annual complaints will
have on a data base with millions of entries and the information this will provide to the agency's
stakeholders. At a minimum, BCP should consider reporting both annual and cumulative figures
in its performance plan to allow for tbe evaluation of current performance.


                                               -4-
         Objective 2. Stop fraud, deception, and unfair practices through law enforcement.


            Performance Jleasure 1.2.1 Save consumers over $250 million by stopping
            consumer frautL



       The BCP estimates total savings conservatively, and although it relies entirely on the
records seized directly from fraudulent businesses, the OIG feels that these are the best available
source documents to begin to understand the dollar impact that the FTC has made by stopping
fraud.

         Among the records the FTC seizes or voluntarily obtains from suspected fraudulent
businesses are sales lists 3 These lists serve a variety of uses, including identifying potential
witnesses and providing a starting point to consider redress. For GPRA purposes, the lists also
provide the agency a basis to calculate the financial harm resulting from fraud, and to estimate
future scam profits had the FTC not come on the scene. The agency uses one year old sales data
as its estimate of future revenues, and assumes that the fraudulent business would have remained
in operation at the same sales level for another year before closing down' Although scam life
cycles are not clearly understood, we have no basis to dispute this assumption. However, since
only those cases where sales records are available are factored into its savings estimate, total
savings are likely to be underestimated.

        To compile data to develop this estimate, BCP operations staff rely on responses to the
BCP questionnaire, which tracks cases from complaint through redress and disgorgement. One
parameter is annual sales, which attorneys estimate based on company sales records. Sales
figures from all cases opened that year are combined and reported. BCP relies on the attorneys'
completion of the questionnaire for this measure.

        The OIG observed controls in place to ensure (i) completion of the questionnaire and (ii)
follow up when information gaps are found. When a case is filed in Federal District Court, BCP
Operations must assign an "X" number. Attorneys then charge time to this number. It also
establishes the case in the tracking system. Once in, BCP Operations staff regularly cross checks
the data base against signed copies of complaints it receives to ensure the tracking system
contains the universe of cases.




        3  Only sales from fraud arc counted. BCP believes that in non-fraud sales, although potentially
deceptive, something of value was obtained.

        4 For savings estimation purposes, businesses in operation for less than a year arc assumed to be
at the midpoint of their life cycle when closed by the FTC; e.g., sales from tbe first half constitute the
agency's estimate for future savings.

                                                    -5-
        While we believe that BCP's system to aggregate data is materially complete, staff told us
that sales data entered by attorneys is not verified. We recognize the burden verifying sales
information would place on operations staff However, we also recognize the ease witb which
data entry and transposition errors occur.



         PeJ:formance J1easure 1.2.4 Percentage oftargeted industries brought
         into compliance through law enforcement or se(fregulation (FY 2()()()
         target 5()%-75%).



        When the OIG began its review of this performance measure, we had questions regarding
how (i) data for this measure was collected, (ii) industries were targeted, and (iii) the
performance measure was calculated. Although the first two questions have been satisfactorily
answered by BCP program staff, questions remained regarding how the performance measure
was calculated. When brought to the attention ofBCP operations staff, it agreed that the wording
of the performance measure was ambiguous. BCP asked tbe OIG to temporarily suspend our
review of this performance measure until modifications were made in its presentation. Because
we gained assurances that data collection systems were in place, we agreed to BCP's request.


        Objective 3. Prevent consumer injury through education.


         Performance Measure 1.3.1 Number ofeducation publications distributed to or
         accessed electronically by consumers (FY 2()()() target 8. 7 million).



        The agency's education messages are relayed through two mediums: (i) brochures and
pamphlets, and (ii) on-line (Internet); users have the option to request information on line, or to
view it directly on the FTC's web page.

         To track its outreach activities, the agency maintains an inventory of all paper
publications on an Excel file (ATREX). Hard copy documents are provided in bulk to requesters
(libraries, better business bureaus, schools, etc.), and the inventory is correspondingly reduced
when these requests are made. When the inventory of any single publication drops below a
certain threshold, more copies are printed. To determine the number of pamphlets mailed out
during any time period, the agency simply identifies the documents that were released from
inventory. This information is tracked monthly by staff in BCP's Office of Consumer and
Business Education. OCBE tracking forms show that for fiscal year 1999, there were just over
six million FTC educational pamphlets distributed.


                                                -6-
        Recently, the agency has experienced a serge in on-line requests for information over the
Internet. These requests are tracked by Netracker software. Data collected by the OIG regarding
website activity shows that "hits" to the FTC consumer page increased by 136 percent in the last
year (from I. I million hits in fiscal year 1998 to 2.6 million hits in fiscal year 1999).

         The OIG did not perform detailed testing to verify the accuracy of these measures.
However, we did review the lists for any unusual activity that appeared, and sought an
explanation for staff regarding possible reasons. For example, we noted that the brochure Sile-
Seeing on the Internet showed nominal increases in requests over the first several months of the
fiscal year However the number of requests (rounded) for this brochure showed the following
activity:



                                   Month (1999)           Site Activity

                                       March                   7,400

                                        April                 32,000

                                        May                   10,500

                                        June                  42,700

                                        July                  59,400

                                       August                 30,000



         The OIG questioned the spike in the number of "hits" during the months of April, June,
July, and August 5 An official in OCBE explained that oftentimes, major search engines (such as
Yahoo) will pick up the document (as it did this one) and make it available to its subscribers,
which explains at least some of the increase in demand. Another possible explanation is that the
search engine continuously "hits" the web page until it is successful. It could be that Yahoo had
trouble accessing the FTC website, and required repeated "hits" to do so. We did not attempt to
sort this out, as this activity was only observed on one of hundreds of pamphlets issued (although
it was 9 percent of all hits in FY 1999). We believe that management should be alert to such
spikes and take the necessary steps to determine their cause(s) if they increase beyond a
management-established threshold.




       5   September data was unavailablc at the timc of our fieldwork.

                                                   -7-
                             Maintaining Competition Mission

        Objeetive 1. Identify anticompetitive mergers and practices that cause
        the greatest consumer injury.

         Performance Measure 2.1.1 Complete the review of all HSR-reported
         transactions, on average, within 2IJ days.


         Performance measure 2.1.1 assumes that the faster an ET request transaction can move
through the HSR review process, business will experience less government burden and the
economy will experience the benefits of a competitive merger sooner. Thus, this performance
measure is intended to show how effective the agency is at processing legal transactions when
filers let the agency know that a turnaround ofless than 30 days is important to them. For
transactions in which no early termination is requested, the 30-day waiting period is considered
appropriate.

        To collect performance data on HSR-reported transactions, the agency relies on the
premerger notification data base. When a filing is received in the premerger notification office
(PNO), it is date stamped. Soon after, one offour data entry staff records the receipt date into the
PNO database. All filings are reviewed by both staff in the FTC premerger notification office
and the Department of Justice (DOJ) Antitrust division. Either agency can request clearance
from the other to open an investigation, resulting in the requesting agency assuming sole
responsibility for reviewing the filing. Generally, clearance is sought because the requesting
agency has expertise in the area being reviewed. Requests for and the granting of clearance is
routine. The number of clearance requests directly impacts the agency's workload.

         Most HSR filings are accompanied by a request for ET, or early termination of the
statutorily-determined 30-day waiting period. The vast majority of filings raise no competitive
concerns and, thus, ET is usually granted. The number of days lapsed between receipt ofthe
filing and the later of the FTC/DO] review completion dates is tracked and reported to, among
others, the Congress and OMB.

       Iffilers do not request ET, PNO staff simply add 30 calendar days to the date received
and enter this calculated "end waiting period" date in the system. Actual review days are not
recorded.

       The performance measure is calculated by summing (combining) all review times for
both ET and "non-ET" requests (in days), and dividing by the total number of filings, resulting in
average days per filing, or the performance measure.




                                               -8-
        The OIG believes that this calculation potentially distorts the agency's performance for
the following reasons. First, it includes a number (30 days) that bears no relation to actual
performance as merging parties are allowed to proceed automatically after 30 days. On the other
hand, ET requests are made, presumably, because an expedited review of the filing is beneficial
to businesses and consumers (efficiencies leading to lower prices). Hence, tracking the agency's
performance regarding ET reviews is important to individuals and firms seeking ET. We believe
that since ET and "non-ET" request review times tell a different story and are both important in
their own right, they should not be combined.

         Second, the measure can fluctuate inversely to performance when the two filings are
combined if the number ofET filings either decrease or increase as a percentage of the total
filings. Table I. presents one decrease scenario that illustrates this point.



                           Table 1. HSR Filings Assumptions
                                                      Year 1                    Year 2

      Number of Filings                                4000                      3500

      Percent ET Requests                              50%                       40%

      Number ET Requests                               2000                      1400

      Ave. Days to Review ET                         10 days                    8 days

      Ave. Days to Review All Filings                20 days                  21.2 days



        In year one, there are 4,000 filings, half (2,000) request ET. Assume further that the
average processing time for ET requests is 10 days. The average time to process "non-ET"
requests is assumed to remain constant at 30 days. The average time to process all premerger
requests (ET and non ET) would then be 20 days'" In year two, filings decrease to 3,500 while
the percentage requesting ET declines to 40 percent (1,400). Assume further that the agency has
become more efficient in processing ET transactions and has reduced the time required to review
them to 8 days. "Non-ET" requests remain at 30 days. It would seem that the agency should be
reporting an improvement in average processing time, but the opposite occurs. Average
processing time increases to 21.2 days 7




       6   (2000 ET filings @IO days) + (2000 llOn-ET filings @ 30 days) / 4000 filings ~ 20 day ave.

       7   (1400 ET filings (@ 8 days) + (2100 non-ET filings@30days)/3500 flings ~ 21.2 day ave.

                                                  -9-
         The performance measure implies that reviews are taking longer; (21.2 days vs. 20 days).
Yet, in reality, staff has improved its performance by 20 percent (from 10 days to 8 days). The
direction of the measure runs contrary to the direction of performance. But, because fewer filers
requested ET, a circumstance out of the control of the FTC, the agency's performance appears to
have decreased. The reverse is also true. Performance could decrease but because more filers
are requesting ET, the average days to process could fall. In conclusion, when both types of
filings are combined for performance measurement purposes, users of the information
(stakeholders) could draw the wrong conclusion depending on the mix ofET requests received
during that period.

        Third, the measure also incorporates DOl review times into the FTC's performance
measure for ET requests. Only the longer of the FTC/DOl review time periods for ET requests is
entered into the PNO database and reported. BC staff told the OIG that this measure is important
because, to the stakeholder, it doesn't matter what the breakout is between the two reviewing
agencies; rather its how long does the government take to process an ET request.' However, to
the extent DOl review times exceed those at the FTC, then DOl's performance will negatively
impact the FTC's performance measure; alternatively, DOl could also improve FTC's
performance if its review times are less that the FTC's. In either case, DOl will impact the
FTC's performance measure. The OIG believes that the agency should, for GPRA purposes,
report both measures; ie., total review time (DOl and FTC combined) and also FTC review time.



        Performanee Measure 2.1.2 Maintain the number (){new nonmerger
        investigations opened during fiscal years 1991 -1996 (from 45 to 70 new
        investigations per year), if that number of nonmerger investigations continues
        to be appropriate in light of marketplace conduct and the need to deter
        anticompetitive business practices.



        Performance measure 2.1.2 locuses on the nonmerger side of the maintaining competition
mission. Before either the FTC or DOl opens an investigation, it is required to obtain clearance
from the other. When clearance is granted to the FTC by DOl to open an investigation of a
potentially anticompetitive transaction, a seven digit number is automatically assigned to the



         8 Performance measures that reflect the combined perfonnance of both the FTC and 001 arc
quite valuable to both management and Congress as they best depict the final outcomes being
experienced by the public. On the other hand, the FTC should be held accountable for its own
perfonuanee and report its individual contribution to any combined perfonuanee measure. For example,
whenever a combined perfonuance measure reflects improvement, stakeholders need to known who
specifically is responsible for this outcome -- FTC, DOJ, or both parties. Consequently, a combined
performance measure needs to provide for the overall outcome and each agency's contribution to the
final result.

                                                - 10 -
investigation by staff in BC's operations division. These "case" numbers are entered into the
matter management system (MMS), and attorneys then charge their time spent investigating the
case. Consequently, a system exists to track the number of new nonmerger cases. Summary
reports are generated on a monthly basis and reviewed for accuracy. The number of
investigations is totaled to arrive at outcomes to be reported as the performance measure.

         The OlG's concern with this performance measure is that, once again, DOrs
performance could impact the FTC's achievement of its objective. For example, taken to the
extreme, DOJ could deny all or many of the staffs clearance requests resulting in the FTC
missing its performance goal. If the reasons for denial concern the merits of the case (DOJ
questions the FTC's interpretation of the facts), refusal may, in fact, be warranted, and the
statistics would accurately reflect tbe agency's performance. On the other hand, if tbe refusals
are made for other reasons, (for example, DOJ agrees with the merits of the case, but chooses to
perform the investigation itself) then the FTC would miss its performance goal even though its
requests for clearance had merit. Instead, the agency should report on the number of clearance
requests made, as well as clearances received and cases pursued by DOJ as the result of an FTC
clearance request.

        Agency officials told the OlG that DOJ is unlikely to deny FTC clearance requests
hecause of the mutually dependant nature of the FTC/DOJ antitrust relationship; e.g., the FTC
could simply deny all DOl requests for clearance. The OlG did not review this relationship and
presents this view as management's observation. We continue to believe, however, that the
agency should only consider and report measures that, at least, reflect FTC performance alone.


        Objective 2. Stop anticompetitive practices and mergers through law
        enforcement.

          Pet:formance 111easure 2.2.1 Achieve a positive result in at least SO percent of
          the cases in which the Commission finds reason to believe a violation has
          been committed (including consent orders, litigation victories and, for
          mergers, transactions abandoned after a recommendation (~f a complaint).



         The Bureau of Competition relies on the MMS to track case outcomes. The MMS
contains a field to identify abandoned HSR transactions and the outcomes of consent orders and
litigated matters. According to agency staff, less than 10 cases annually are litigated.

        The OIG believes that the performance measure, as written, will be achieved every year
because potential positive results are much more prevalent than potential negative results. We
therefore question its utility as a performance measure. For example, if a firm chooses not to
merge based on a likely complaint filed by the FTC, the agency notes this as a "positive result."


                                               -]] -
But companies refusing to withdraw in light of a potential complaint are not counted as a
"negative result." Further, if the parties do not face a complaint, but are required to divest and
agree to do so, once again, only one outcome is possible: a "positive result." The companies'
refusal to divest assets is not counted as a "negative result." If the company chooses litigation,
only then can a "negative result" be noted. In short, there are too many opportunities to achieve a
"positive result" and too few opportunities to obtain a "negative result." The OIG believes that,
to the extent that these parties see the world as we do at decision junctures, then we should count
that as a "positive result". To the extent parties differ with us at juncture points, we need to note
that too. The results should be separately identified and statistics reported.

        Further, the measure could potentially understate the effort and resources required to
"achieve a positive result." For example, if a company unsuccessfully appeals a litigated
decision, first by the Commission, then the administrative law judge, the courts and ultimately
the Supreme Court, the FTC would only recognize one positive outcome - the first decision. A
basic tenet of GPRA is to match costs with outcomes. Even though the bulk of the costs could
occur during the end stages of the appeal, the FTC would only recognize the outcome at the front
end. Alternatively, recognizing the final stage only would, in the case of a lost appeal, potentially
risk spending resources for years with nothing to show for it. The OIG believes that, because
resources are expended at each stage, the agency should track each litigated decision in its favor
as a "positive result." Potentially, one case could result in several "positive results." To be
consistent, a negative result should be noted when a case is lost on appeal, even though previous
positive outcomes have been identified.



       Performance Measure 2,2,2 Maintain pace to save consumers at least $5{){)
       million during fiscal year 2{){){) by taking action against anticompetitive mergers
       that woultl otherwise increase prices,



        The Bureau of Competition tracks estimated sales information on tbe MMS. Sales data is
often readily available on merger investigations and, on occasion, on nonmerger investigations.
To derive its estimate of consumer savings, the agency combines total sales within the market in
question with two other internally-derived indices: an estimated price increase that would have
occurred if the FTC had not stopped the action (conservatively estimated at one percent)", and an
estimated time that competitors would have been excluded from entry into the market - two
years. A simple formula is applied to each estimated sales figure where data is available:

        Dollar Volume «[Commerce x 1% x 2 yrs.              =   Consumer Savings



        9   Merger guidelines use five percent as the recommended price increase before considering
enforcement action. Honce a one percent estimate is conservative.

                                                   - 12 -
For example, if sales (volume of commerce) in the market are estimated to be $5 million, then
estimated consumer savings by preventing the anticompetitive act is $100,000.

        The OIG believes that the agency has developed a conservative approach to calculating
savings that is also auditable.


        Objective 3. Prevent consumer injury through education.

        Performance Measure 2.3.2 Pursuant to the Health Care policy statements,
        issue advisory opinions in the health care area within 9() days from the receipt
        ofall necessary information from the requesting party.



       The OIG was told by BC staff that this is a low volume-low resource area-
approximately 10 requests per year. While this measure is auditable, it appears to be more
process-oriented than outcome-focused; and, thus, we believe provides little insight into agency
performance.

Summary

         Even before enactment of the Government Performance and Results Act of 1993, the
agency, on an annual basis, provided OMB and Congress with detailed information on the
outputs of its labor: millions of dollars returned to consumers; law violators forced to pay huge
fines, and hundreds of anticompetitive practices stopped. The OIG believes that the agency
needs to take the next step and explain to its stakeholders how the achievement of the
performance measure addresses not only the agency's performance goals, but how consumers
directly benefit from FTC's achievement of its performance goals.

         Since the advent of GPRA, the agency has shifted its focus to reporting on the outcome of
its actions, and measuring that outcome as a way to illustrate to Congress, OMB and the
American public the results of their investment in the FTC. The development of a performance
plan and measures to assess achievement of the plan's goals and objectives, are an integral first
step toward providing financial accountability. The next step is to tie performance to costs
through the avenue of the agency's audited financial statements.

        Beginning in FY 1999, the agency is to include performance information in the overview
to the financial statements. Therefore, it is important that the agency build a firm foundation to
capture accurate and timely performance results.




                                               - 13 -
